App. 1
COURT OF APPEALS
DECISION
DATED AND FILED

NOTICE

This opinion is subject
to further editing. If
April 2, 2019
published, the ofﬁcial
version will appear in
Sheila T. Reiff
Clerk of Court of Appeals the bound volume of
the Ofﬁcial Reports.
A party may ﬁle with
the Supreme Court a
petition to review an
adverse decision by
the Court of Appeals.
See WIS. STAT. § 808.10
and RULE 809.62.
Appeal No.

2018AP820

STATE OF WISCONSIN

Cir. Ct. No. 2016TP4
IN COURT OF
APPEALS
DISTRICT I

IN RE THE TERMINATION OF PARENTAL RIGHTS TO
D.U.C., A PERSON UNDER THE AGE OF 17:
STATE OF WISCONSIN,
PETITIONER-RESPONDENT,
V.

T.R.C.,
RESPONDENT-APPELLANT.
APPEAL from an order of the circuit court for Milwaukee County: LAURA GRAMLING PEREZ, Judge.
Afﬁrmed.

App. 2
¶1 BRENNAN, J.1 T.R.C. appeals from an October 17, 2017 order terminating her parental rights
to her daughter, D.U.C. (D.), on grounds of continuing
need of protection or services. See WIS. STAT.
§ 48.415(2). At birth, D. weighed just one pound and
ﬁve ounces. She remained in the hospital for the ﬁrst
ﬁfteen months of her life. She then lived with T.R.C. for
ten months. She was removed from T.R.C.’s home at
age two based on repeated referrals to child welfare ofﬁcials and, between that point and the time of the disposition of this case, was continuously in out-of-home
placement for forty-six months. She was almost six at
the time of the TPR order. T.R.C. seeks reversal of the
order on three grounds.
¶2 First, T.R.C. argues that her no contest plea
at the grounds phase was not knowing, voluntary, and
intelligent because the trial court failed in its mandatory duties in the plea colloquy to explain the different
standard of proof that would apply at the dispositional

1

This appeal is decided by one judge pursuant to WIS. STAT.
§ 752.31(2)(e) (2017-18). All references to the Wisconsin Statutes
are to the 2017-18 version unless otherwise noted.
Notwithstanding WIS. STAT. § 809.107(6)(e), we may extend
the time to issue a decision in termination of parental rights
cases. See Rhonda R.D. v. Franklin R.D., 191 Wis. 2d 680, 694,
530 N.W.2d 34 (Ct. App. 1995). Due to the need to address the
number of issues raised by the parties on appeal, on our own motion, we extend the decisional deadline in this appeal to the date
of this decision.

App. 3
hearing and because she did not in fact understand the
consequences of the no-contest plea.2
¶3 Second, T.R.C. argues that at the dispositional hearing, trial counsel rendered ineffective assistance in four ways: (1) when the family case manager
testiﬁed about D.’s episodes of diarrhea after visits
with T.R.C., trial counsel failed to object that the family case manager was not a medical expert; (2) trial
counsel failed to call as witnesses one of D.’s pediatric
specialists and a doctor who had conducted a psychological evaluation that included positive statements
about T.R.C.; (3) trial counsel failed to argue that WIS.
STAT. § 48.415 was unconstitutional as applied to
T.R.C. because her parental rights were terminated in
spite of evidence that she was capable of caring for D.
and because there were other alternatives to termination; and (4) trial counsel failed to argue that the State
had not proved that T.R.C. had “caused [D.] to be sick.”
¶4 Third, T.R.C. asks that this court reverse the
order in the interest of justice, claiming that subsequent criminal allegations in a separate matter
against the guardian ad litem created a conﬂict of interest that “tainted” the proceedings and claiming that
“there are no compelling reasons to terminate” T.R.C.’s
parental rights.
¶5 For the reasons below, we conclude that T.R.C.
has not satisﬁed her burden to show that her plea was
2

T.R.C. also argues that at the grounds phase trial counsel
rendered ineffective assistance of counsel by failing to explain to
her the consequences of pleading no contest.

App. 4
not entered knowingly, voluntarily, and intelligently.
She has not shown that trial counsel performed deﬁciently. She has not shown that reversal in the interest
of justice is warranted. We therefore afﬁrm.
BACKGROUND
¶6 The court report for termination of parental
rights prepared in 2016 stated that D., T.R.C.’s fourth
child, was born extremely prematurely on November 1,
2011, at 25 weeks’ gestation. At birth she weighed only
one pound and ﬁve ounces.
¶7 The report stated that T.R.C. had been the
subject of “at least a dozen referrals” starting in 2010.
Prior to D.’s birth in 2011, T.R.C. had three drugrelated convictions. During the time D. was hospitalized, T.R.C. could not be found to consent to a needed
surgery despite having been told about it months in
advance. T.R.C. was “absent for long periods of time”
when D. was hospitalized. D. was not released from the
hospital to go home with T.R.C. until she was ﬁfteen
months old. In October and November 2013, when D.
was placed in T.R.C.’s home, ofﬁcials received reports
that T.R.C.’s son, age twelve, had been left alone to care
for D. and was afraid to be in the home because T.R.C.
was verbally abusive and threatening physical abuse,
and because her boyfriend had a gun and drugs in the
home. In 2013, T.R.C. was convicted of prostitution.
T.R.C. had posted statements on social media accounts
that indicated she was selling marijuana and alcohol
out of her home in order to pay her bills.

App. 5
¶8 D. has multiple diagnoses as a result of her
premature birth, has had multiple surgeries, and requires frequent doctor appointments. The court report
described her as “extremely medically fragile” and as
being developmentally delayed. According to the court
report, at the age of four, she displayed the developmental characteristics of an eighteen-month-old child.
CHIPS case proceedings.
¶9 On December 17, 2013, after ten months in
T.R.C.’s home, D. was taken into protective custody and
has continuously remained in out-of-home care. D. was
found to be a child in need of protection or services on
February 3, 2014, and a CHIPS dispositional order was
entered on March 10, 2014, and then extended on December 10, 2015. The written order listed the conditions of return that T.R.C. would need to satisfy. The
order also included a warning that T.R.C.’s parental
rights to D. could be terminated if she failed to meet
these conditions of return. There were three conditions. First, she was required to meet the following
goals for behavioral change: (1) manage her emotional
and mental health; (2) understand how her substance
abuse affects her ability to parent and the well being
of her children; (3) refrain from any violence in the
home or towards any other person in the home; (4)
demonstrate that she understands her children’s individual needs and her role as a parent; (5) support the
special needs of her children; and (6) resolve any criminal cases by attending hearings and complying with
all court orders. Second, she was required to maintain

App. 6
a relationship with her child by regularly participating
in successful visitation with the child. And third, she
was required to demonstrate an ability to provide a
safe level of care for the child.
TPR case proceedings.
¶10 Almost two years after the CHIPS order, on
January 6, 2016, the State ﬁled a petition to terminate
T.R.C.’s parental rights to D. on grounds of continuing
need of protection and services.3 The petition alleged
that T.R.C. had failed to meet the conditions despite
reasonable efforts by DMCPS4 to provide services to
enable her to do so. The petition alleged that: (1) T.R.C.
had attended only one therapy appointment and had
refused medication management services; (2) T.R.C.
had been discharged from one AODA treatment provider and had discontinued treatment with another after less than three months; (3) she had not participated
in services to address the impact of domestic violence
on her children; (4) there were two periods of unsupervised visitation—from fall of 2014 through January
2015 and from May through August 2015—but supervision was reinstated each time due to T.R.C.’s
3

The petition also alleged grounds of failure to assume parental responsibility; at the grounds hearing, the State dismissed
the failure to assume charge. D.’s father voluntarily terminated
his parental rights.
4
During the pendency of D.’s CHIPS and TPR cases, the Bureau of Milwaukee Child Welfare (BMCW) was renamed the Division of Milwaukee Child Protective Services (DMCPS). We refer
to the agency as DMCPS throughout.

App. 7
“untreated mental health issues” and “medical concerns” that arose when D. was in T.R.C.’s care; (5) T.R.C.
had not “regularly visited” D. during the child’s frequent hospitalizations in the months preceding the petition.
¶11 After multiple adjournments the grounds
phase hearing occurred on December 19, 2016. T.R.C.
entered a plea of no contest to the grounds phase of the
proceeding. In exchange for the plea, the State, rather
than proceeding to disposition immediately, agreed to
delay the dispositional hearing for six months. The
court engaged T.R.C. in the following colloquy:
COURT: What [trial counsel] has told me is
that you would like to enter a no contest plea
to the continuing CHIPS ground that’s alleged as one of the potential grounds for termination of your parental rights in this
petition. Is that the case today, ma’am?
T.R.C.:

Yes.

COURT: Have you had a chance to discuss
that decision with [trial counsel]?
T.R.C.:

Yes.

COURT: Do you feel like you had enough
time to talk to [trial counsel] about your decision?
T.R.C.:

Yes.

....
COURT: Do you understand that by entering a no contest plea, you’re not admitting

App. 8
that any of these allegations in the petition
are true or that any of the allegations that the
State will provide some brief testimony about
are true. But what you are doing is you’re recognizing that the State can prove enough of
these allegations to establish that grounds exist to terminate your parental rights under
the continuing CHIPS allegations. Do you understand that?
T.R.C.:

Yes.

COURT: Do you understand that by entering your no contest plea, you’re not agreeing
to termination of your parental rights. What
we’ll do is we’ll set this case over for dispositional hearing and at the dispositional hearing I will have the – you’ll still have the ability
to challenge whether I should in fact terminate your parental rights. Do you understand
that?
T.R.C.:

Yes.

COURT: Do you understand though that at
the dispositional hearing the issues are a bit
different. The only focus at that point will be
on what is in [D.’s] best interest. The focus –
there will not – I will no longer need to decide
whether grounds exist to terminate your parental rights or whether the State has proven
grounds by clear and convincing evidence. Do
you understand that?
T.R.C.:

Yes.

COURT: Okay. Do you understand that although you’re not agreeing to termination of

App. 9
your parental rights, it’s possible that the outcome of this case will be termination of your
parental rights. Do you understand that?
T.R.C.:

Yes.

COURT: Okay. Do you understand that if I
accept your no contest plea and ﬁnd that
grounds exist to terminate your parental
rights, that I’ll be required by law to make a
ﬁnding that you’re unﬁt as a parent for [D.]
Do you understand that?
T.R.C.:

Yes.

COURT: Okay. Do you understand that once
we move to the dispositional phase, the decision about what to do next, about whether to
terminate your parental rights will be made
by me, by the Court alone. Do you understand
that?
T.R.C.:

Yes.

....
COURT: Do you understand if we establish
grounds to terminate your parental rights
and make a ﬁnding that you’re unﬁt, if we go
to dispositional hearing and I make a ﬁnding
that it’s in [D.’s] best interest for me to terminate your parental rights, that that’s what I’ll
do at that hearing. Do you understand that?
T.R.C.:
....

Yes.

App. 10
COURT: Okay. Is there anybody you would
like to talk to, a counselor, a relative, your
mother, anybody else you would like to talk to
before you make your decision today?
T.R.C.:

No.

COURT: Okay. So [the guardian ad litem]
who is sitting at the back table is the guardian
ad litem for [D.] It’s his job to represent what
is in [D.’s] best interest. Do you understand
his role?
T.R.C.:

Yes.

COURT: Have you had any discussion with
[the guardian ad litem] about entering your
no contest plea today?
T.R.C.:

No.

COURT: No. Okay. Has anybody at all including your lawyer, me or the guardian ad litem or the State, anybody, offered you
anything, offered you gifts or money or to do
anything for you other than the agreement to
put off disposition in this case for another six
months if you come to court and enter your no
contest plea today?
T.R.C.:

No.

....
COURT: Do you have any questions at all
about what you’re doing today?
T.R.C.:
....

No.

App. 11
COURT: Okay. Would you like any more
time to think about what you are doing or talk
to your lawyer about it?
T.R.C.:

No.

COURT: Is there anything that you feel like
you need to do before entering your no contest
plea that you haven’t done yet?
T.R.C.:

No.

COURT: Okay. Have you discussed with
[trial counsel] what kind of – what your strategy would be if you had a trial, what you
would argue, what witnesses you would call,
what the case would be that you try to make
at trial?
T.R.C.:

Yes.

COURT: And do you feel like you understand all that?
T.R.C.:

Yes.

COURT: Are you satisﬁed with your lawyer
. . . and the representation she’s given you on
this case.
T.R.C.:

I am.

COURT: Is there anything about these proceedings that you don’t understand, anything
you’d like to ask me or your lawyer about before we move forward?
T.R.C.:

No.

App. 12
COURT: Are you making your decision to
enter your no contest plea to continuing
CHIPS grounds freely, voluntarily, intelligently, with full understanding after having
thought about everything we talked about today and after having consulted with your lawyer?
T.R.C.:

Yes.

COURT: And understanding all of the rights
that you have, all the rights you are giving up
today, do you still want to enter your no contest plea to continuing CHIPS grounds?
T.R.C.:

Yes, I do.

(Emphasis added.)
¶12 The trial court accepted the plea and the
case proceeded to prove-up. D.’s family case manager
testiﬁed that D. had been in out-of-home care since December 2013 and that there had been “no signiﬁcant
progress to the reuniﬁcation of her in the home.” She
testiﬁed that T.R.C. had failed to meet several conditions of reuniﬁcation, that her behavior posed a threat
to D.’s safety, and that she would be unable to make
the progress necessary for D. to return home. The court
found, based on the testimony and the documents from
the underlying CHIPS case, that the State had established by clear and convincing evidence that each element of WIS. STAT. § 48.415(2) had been satisﬁed: that
D. had been removed from the home as part of the
CHIPS case, that there was a dispositional order entered with the requisite warnings, that reasonable

App. 13
efforts had been made to help T.R.C., that T.R.C. had
been unable to meet the conditions for reuniﬁcation,
and that “given the length of time this has been pending and the progress [T.R.C.] has not made during that
time, it’s substantially unlikely that [T.R.C.] will be
able to meet those conditions within the next nine
months.” The trial court found that grounds existed for
termination and, as required by statute, made a ﬁnding that T.R.C. was unﬁt. The matter was then adjourned for a contested dispositional hearing
scheduled for six months later.
¶13 The dispositional hearing, scheduled for
June, did not ultimately occur until October 2017, ten
months after the grounds determination. In the meantime, motion and status hearings were held in May,
June, July, and August. During this period, the court
learned that T.R.C. had missed a meeting with the family case manager and an important doctor’s appointment for D. The court also learned of problems related
to the visits. The family case manager reported that D.
had twice returned to the foster home after a sevenhour unsupervised visit with T.R.C. wearing the same
diaper that she had been dropped off in, and it was
soaked through onto her clothes. D. also had repeatedly
returned from visits with gastrointestinal symptoms
that appeared only after visits with T.R.C. The family
case manager then came to supervise feeding times
when D. was visiting T.R.C.5 In August, the case
5

D. “has a G-tube and breathing issues” and she “requires
medication in the morning and gets four and a half feedings per
day.” At the time of the termination proceedings, D. was still in

App. 14
manager reported that a doctor had diagnosed D. with
lactose intolerance and had ordered dietary changes as
a result.
¶14 At the dispositional hearing, testimony was
taken from D.’s foster mother and from the family case
manager. The family case manager testiﬁed that there
were concerns about D.’s gastrointestinal symptoms
after visits and there were concerns that D. was being
left in the care of others during visitation times.
DMCPS implemented two types of services: a “pop-in
service” and a “safety control service.” In a “pop-in service” a worker made unannounced visits during visitation times. In a “safety control service” a worker came
“exactly at the feed time” to “watch that feed and then
leave.” The case manager testiﬁed to the pop-in service
and indicated that on two occasions, the supervisor
was unable to ﬁnd T.R.C. She testiﬁed that when the
safety control was in place, D. would not be sick after
visits. She testiﬁed that she had been “hopeful” after
the diagnosis of lactose intolerance that D.’s post-visit
problems “would subside after the dairy was removed
from her diet[.]” However, even after that, D. was again
sick after a visit where there had been no supervision.
She also testiﬁed that T.R.C. had not consistently attended therapy and that she had not complied with the
random urine screens required by the CHIPS order.
¶15 T.R.C. testiﬁed and denied any inappropriate care of D. during visitation. She denied leaving D.’s
diapers, and “[d]ue to her feeding issues she needed to have her
diapers changed every three hours.”

App. 15
diaper unchanged. T.R.C.’s mother also testiﬁed that
she believed T.R.C. could safely parent D.
¶16 In rebuttal testimony, the family case manager answered further questions about the problems at
visitation. She testiﬁed that the problems D. had with
diarrhea occurred “only after her visits” with T.R.C.
¶17 Following the testimony, the trial court speciﬁcally noted that it was not considering the time D.
had spent in the hospital after her birth: “That stay
certainly was not anything [that] to my knowledge resulted from any fault of [T.R.C.] and that is certainly
time when although [D.] had to be in the hospital for
medical reasons, she was under the care of her mother.”
The trial court then listed “a few things that struck
[the trial court] during this hearing”:
I do believe that [D.] has not always received
adequate care during her visits with [T.R.C.]
I do believe there have been signiﬁcant
stretches of time when [T.R.C.] has not
changed [D.’s] diaper or attended to her feeding needs adequately during those visits. I
was very struck, again I’ll note, by the testimony that [T.R.C.] has avoided interaction
with the foster parents and the opportunity to
exchange information about [D.] and how
she’s doing and her feeding needs and her
health during those times when they see each
other regularly during transportation for visits. I note that [T.R.C.] has not always attended [D.’s] medical appointments. . . .

App. 16
I also note that I have some concern about
the accuracy of the information that I’ve received from [T.R.C.] And I have some concern
while [T.R.C.] has I think stated that she’s
been working hard to get back on her feet and
trying to do what she can for [D.], it’s not clear
to me that [T.R.C.] has always been forthcoming with this [c]ourt.
After listing speciﬁc issues on which “[T.R.C.’s] testimony seems to conﬂict with a number of different people’s testimony[,]” the trial court stated, “I have a
concern that the information that I’ve received from
[T.R.C.] . . . is not always entirely complete or accurate.
And I take that into consideration in weighing the different information that I’ve heard.”
¶18 The trial court then applied the factors of
WIS. STAT. § 48.426(3). The court found that: (1) the
likelihood of adoption was high; (2) D. is a young child
with very signiﬁcant health challenges that needs a
very high level of care; (3) D. had a relationship with
T.R.C., but that she would not be harmed if T.R.C.’s parental rights are terminated; (4) D. is too young to articulate her wishes in regard to the case, so that factor
did not apply; (5) D. has spent almost two-thirds of her
life in out-of-home care; and (6) D. has not always received adequate care during her visits with T.R.C., and
an adoptive family could provide D. with the care she
needs. The guardian ad litem recommended that
T.R.C.’s parental rights be terminated because that
was in the best interests of the child. The trial court
concluded that termination was in D.’s best interests.

App. 17
Post-disposition motions
¶19 T.R.C. appealed. She moved this court for remand, raising arguments based on ineffective assistance of counsel and interest of justice. On remand, the
post-disposition court denied the motion without a
hearing. The post-disposition court concluded that the
motion was “without merit” and “completely ignore[d]”
the procedural framework and legal rules governing
termination of parental rights cases. It concluded that
the testimony about diarrhea was not expert testimony
and that the writer of the psychological review did not
have testimony relevant to the issues at disposition.
For those reasons it concluded that “none of the claims
raised in the Post remand motion have merit or require
further fact-ﬁnding.” As to the claim of a constitutional
violation, the post-disposition court stated:
The ﬁnal error claimed in the [p]ost remand motion is that trial counsel failed to argue that the trial court did not use a strict
scrutiny analysis to protect [T.R.C.’s] rights
under the 14th amendment. In making this
argument appellate counsel completely ignores the ﬁndings made at the Grounds phase
of the proceedings. When the court accepted
[T.R.C.’s] no contest plea the court took testimony and found that the State had proven
that grounds existed to terminate [T.R.C.’s]
parental rights by clear convincing and satisfactory evidence. Based on that ﬁnding, the
court, as required by law, made a ﬁnding that
she was unﬁt as a parent. The [p]ost remand
motion references language from the United

App. 18
States Supreme Court in Santosky v. Kramer, 455 U.S. 745, 102 S. Ct. 1388 (1982) and
the Wisconsin Supreme Court’s holding in
Barstad v. Frazier, 118 Wis. 2d 549, 348 Wis.
2d 479 (1984). Neither of these cases offer any
support for [T.R.C.’s] position. In Santosky
the United States Supreme Court held that a
ﬁnding of grounds to terminate parental
rights required a higher burden of proof than
simply the greater weight of the credible evidence. The court required states to prove
grounds for termination by at least clear, convincing and satisfactory evidence. The Court
did not require that states prove termination
grounds beyond a reasonable doubt, noting
that a number of factors in termination cases
were not amenable to that level of proof.
Proceedings under [WIS. STAT. §] 48.415
comply with the Court’s holding in Santosky
and require that the petitioner provide proof
at the grounds phase that is clear convincing
and satisfactory.
The [p]ost remand motion quotes language from the Barstad decision that discusses the need for a higher standard than the
best interests of the child in custody disputes
between a parent and a nonparent third party.
However, the motion ignores the fact that
[T.R.C.] was found unﬁt as a parent at the conclusion of the grounds phase. The Barstad
court expressly noted that once a parent is
found to be unﬁt, the court then must look at
the best interests of the child in making a custody determination.

App. 19
¶20 T.R.C. then ﬁled a second remand motion,
which this court granted, this time alleging, on different grounds, that trial counsel was ineffective, and arguing that her no-contest plea was not knowingly,
voluntarily, and intelligently entered. The postdisposition court then heard testimony from T.R.C.’s
trial counsel, who testiﬁed that she explained to T.R.C.
prior to her plea the difference between the grounds
and the dispositional phase of a TPR proceeding. Trial
counsel believed that T.R.C. understood that difference. She further testiﬁed that T.R.C. “decided to do the
no contest plea because of the offer of additional time
and based on her past ability to move to substantial
periods of unsupervised visitations with [D.]”
¶21 The trial court then made ﬁndings of fact. It
stated that it had reviewed the transcript of the plea
hearing. It found that T.R.C.’s trial counsel was “more
credible” than T.R.C. and that T.R.C. was aware that
entering her plea would result in a ﬁnding of unﬁtness.
It found that the trial court’s plea colloquy correctly
stated the law when it stated, “the only focus [at the
disposition hearing] will be on what is in [D.’s] best interest.” It further found that “the record establishes
that when [T.R.C.] entered her no contest plea, she understood that the sole focus would be the best interests
of her daughter at the disposition hearing.” It therefore
concluded that her plea had been entered freely, voluntarily, and intelligently. It noted the trial counsel’s testimony that the plea agreement had been a strategic
decision by T.R.C. in order to delay the dispositional
hearing and to “put [T.R.C.] in a much stronger

App. 20
position at the disposition hearing” by giving her additional time to “build a track record” of successful visitation. It concluded that there was no basis to vacate
the order.
¶22 This appeal follows.
DISCUSSION
I.

Standard of review.

¶23 This appeal presents review of the trial
court’s credibility determinations, ﬁndings of fact, and
conclusions of law.
¶24 “[T]he trial court is the ultimate and ﬁnal
arbiter of the credibility of witnesses, and we must accept the trial court’s credibility determination.” Nicholas C.L. v. Julie R.L., 2006 WI App 119, ¶23, 293
Wis. 2d 819, 719 N.W.2d 508. An appellate court will
not overrule a trial court’s credibility determination
absent a ﬁnding that it is “inherently or patently incredible,” or “in conﬂict with the uniform course of nature or with fully established or conceded facts.”
Chapman v. State, 69 Wis. 2d 581, 583, 230 N.W.2d
824 (1975) (footnotes omitted).
¶25 When the trial court acts as ﬁnder of fact, it
is responsible for making ﬁndings on the ultimate facts
and separately stating its conclusions of law. WIS. STAT.
§ 805.17(2). The trial court’s ﬁndings of fact “shall not
be set aside unless clearly erroneous.” Id. Such factual
ﬁndings will be upheld as long as they are supported
by any credible evidence or reasonable inferences that

App. 21
can be drawn therefrom. Meyer v. Classiﬁed Ins.
Corp., 179 Wis. 2d 386, 396, 507 N.W.2d 149 (Ct. App.
1993). The court will search the record for evidence to
support the trial court’s ﬁndings of fact. Becker v.
Zoschke, 76 Wis. 2d 336, 347, 251 N.W.2d 431 (1977).
We must accept any reasonable inferences the factﬁnder makes from the evidence. Cogswell v. Robertshaw Controls Co., 87 Wis. 2d 243, 250, 274 N.W.2d
647 (1979). Conﬂicts in the testimony are resolved in
favor of the trial court’s ﬁndings of fact. Norwood v.
State, 74 Wis. 2d 343, 364, 246 N.W.2d 801, 812 (1976).
¶26 The trial court’s conclusions of law are entitled to no deference and are reviewed de novo. Ball v.
District No. 4 Area Bd. of Vocational, Tech., and
Adult Educ., 117 Wis. 2d 529, 537, 345 N.W.2d 389
(1984).
II.

Relevant law.

¶27 “[A] parent’s desire for and right to the companionship, care, custody, and management of his or
her children is an important interest that undeniably
warrants deference and, absent a powerful countervailing interest, protection.” Lassiter v. Dep’t of Soc.
Servs., 452 U.S. 18, 27 (1981) (internal quotations
omitted); see also Evelyn C.R. v. Tykila S., 2001 WI
110, ¶20, 246 Wis. 2d 1, 629 N.W.2d 768. The parent’s
interest in the parent-child relationship “is recognized
as a fundamental liberty interest protected by the
Fourteenth Amendment.” Steven V. v. Kelley H., 2004
WI 47, ¶22, 271 Wis. 2d 1, 678 N.W.2d 856 (citing

App. 22
Santosky v. Kramer, 455 U.S. 745, 753 (1982)). Our
supreme court has summarized the law on termination
of parental rights in Wisconsin as follows:
Nevertheless, Wisconsin’s Children’s
Code, Wis. Stat. ch. 48, provides that “under
certain circumstances” a court “may determine that it is in the best interests of the child
for the child to be removed from his or her parents, consistent with any applicable law relating to the rights of parents.” Termination of
parental rights adjudications are “among the
most consequential of judicial acts” because
they involve the power of the State to “permanently extinguish[ ]” any legal recognition of
the rights and obligations existing between
parent and child. “When the State moves to
destroy weakened familial bonds, it must provide the parents with fundamentally fair procedures.”
Initially, the parental right is considered
paramount “until there has been an appropriate judicial proceeding demonstrating that
the state’s power may be exercised to terminate that right.” A court may not terminate
parental rights without ﬁrst making an individualized determination that the parent is
unﬁt. Once an unﬁtness determination is
made, however, it is the best interests of the
child rather than the rights of the parent that
is considered “paramount.” To accommodate
the different and sometimes conﬂicting interests involved, termination of parental rights
proceedings are bifurcated into two phases.

App. 23
The ﬁrst phase consists of a fact-ﬁnding
hearing, where the purpose is to determine
whether parental unﬁtness can be proven.
During this ﬁrst phase, the parent receives a
full complement of procedural rights. The burden is on the petitioner to demonstrate by
clear and convincing evidence that grounds
for termination exist. If the petitioner meets
that burden, the court must ﬁnd the parent to
be unﬁt.
An unﬁtness ﬁnding does not predetermine the ultimate outcome of the proceedings.
Rather, a ﬁnding of unﬁtness permits the
court to move on to the second phase of the
proceedings, the dispositional phase. During
the dispositional phase, the court determines
whether the parent’s rights will be terminated and if so, what will happen to the child.
It is the best interests of the child that is the
“polestar” at the dispositional hearing.
Brown Cty. DHS v. Brenda B., 2011 WI 6, ¶¶30-33,
331 Wis. 2d 310, 795 N.W.2d 730 (emphasis added, citations omitted). The State has a “compelling interest
[in] protecting children from unﬁt parents, including
the temporal component in this interest that promotes
children’s welfare through stability and permanency in
their lives.” Dane Cty. DHS v. P.P., 2005 WI 32, ¶32,
279 Wis. 2d 169, 694 N.W.2d 344.
¶28 As relevant to this case, WIS. STAT. § 48.415(2)
provides that grounds for termination of parental
rights can be established by showing that a child is in

App. 24
“[c]ontinuing need of protection or services.” To establish this, the State must prove the following:
1. That the child has been adjudged to be a
child . . . in need of protection or services and
placed . . . outside his or her home pursuant to
one or more court orders . . . containing the
[required] notice[.]
2. a. In this subdivision, “reasonable effort”
means an earnest and conscientious effort to
take good faith steps to provide the services
ordered by the court which takes into consideration the characteristics of the parent or
child or of the expectant mother or child, the
level of cooperation of the parent or expectant
mother and other relevant circumstances of
the case.
b. That the agency responsible for the care of
the child and the family or of the unborn child
and expectant mother has made a reasonable
effort to provide the services ordered by the
court.
3. That the child has been placed outside the
home for a cumulative total period of 6 months
or longer pursuant to an order listed under
subd. 1. . . . that the parent has failed to meet
the conditions established for the safe return
of the child to the home; and, if the child has
been placed outside the home for less than 15
of the most recent 22 months, that there is a
substantial likelihood that the parent will not
meet these conditions as of the date on which

App. 25
the child will have been placed outside the
home for 15 of the most recent 22 months. . . .
Sec. 48.415(2)(a)1.-3. (emphasis added).
III. T.R.C. has not made a prima facie case that
the plea colloquy was deficient.
¶29 “[I]t is during the ﬁrst phase of an involuntary termination of parental rights proceeding that the
parent’s interest in the parent-child relationship is
most jealously protected.” Brenda B., 331 Wis. 2d 310,
¶34. A parent who chooses to enter a no contest plea
during this phase is giving up valuable protections and
must have knowledge of the rights being waived by
making the plea. Kenosha Cty. DHS v. Jodie W., 2006
WI 93, ¶25, 293 Wis. 2d 530, 716 N.W.2d 845 (citing
State v. Bangert, 131 Wis. 2d 246, 265-66, 389 N.W.2d
12 (1986)). The principles and analysis of Bangert apply. Jodie W., 293 Wis. 2d 530, ¶24. The trial court
must engage the parent in a colloquy to ensure that
the plea is knowing, voluntary, and intelligent. Id. This
colloquy is governed by the requirements of WIS. STAT.
§ 48.422(7) and notions of due process. Waukesha Cty.
v. Steven H., 2000 WI 28, ¶¶25, 39, 233 Wis. 2d 344,
607 N.W.2d 607.
¶30 To make a prima facie case that the plea was
not knowing, voluntary, and intelligent, a parent must
show that the colloquy was deﬁcient and also allege
that he or she did not know or understand the information that should have been provided. Id., ¶42. At
that point, the burden shifts to the petitioner to

App. 26
demonstrate by clear and convincing evidence that the
parent knowingly, voluntarily, and intelligently pled no
contest. Id.
¶31 T.R.C. argues that the trial court “minimized
the signiﬁcance of the no contest plea” when it characterized the dispositional hearing issues as “a bit different” than the issues at the grounds phase. The trial
court’s exchange with T.R.C. on this point was as follows:
COURT: Do you understand that by entering your no contest plea, you’re not agreeing
to termination of your parental rights. What
we’ll do is we’ll set this case over for dispositional hearing and at the dispositional hearing I will have the – you’ll still have the ability
to challenge whether I should in fact terminate your parental rights. Do you understand
that?
T.R.C.:

Yes.

COURT: Do you understand though that at
the dispositional hearing the issues are a bit
different. The only focus at that point will be
on what is in [D.’s] best interest. The focus –
there will not – I will no longer need to decide
whether grounds exist to terminate your parental rights or whether the State has proven
grounds by clear and convincing evidence. Do
you understand that?
T.R.C.:

Yes.

App. 27
(Emphasis added.) T.R.C. argues that trial counsel “did
not object when the court said ‘a bit different’ and did
not correct the judge[.]” T.R.C. argues conclusorily that
the difference in the burden of proof at the grounds
phase and the disposition phase is not “a bit different”
but is rather “hugely and drastically different.”
¶32 T.R.C.’s argument is based on three words
taken out of context. The plea colloquy, as fully reproduced above, states the law correctly and fully. We conclude that the trial court did not fail in its mandatory
duties in the plea colloquy. Because that is the threshold question in a plea colloquy analysis, we need not
address T.R.C.’s arguments that trial counsel performed deﬁciently in explaining the consequences of
the plea and that she did not understand that she was
giving up her right to contest her parental ﬁtness. We
note that T.R.C. told the trial court in the plea hearing
that she did understand that she was giving up those
rights and that following the post-remand hearing the
trial court found trial counsel’s testimony credible
when she testiﬁed that she had explained the strategy
and the plea consequences to T.R.C.
IV. Trial counsel did not render constitutionally ineffective assistance of counsel.
¶33 Parents in involuntary termination of parental rights cases have a statutory right to counsel as
provided in WIS. STAT. § 48.23(2), and included is the
right to effective counsel. A.S. v. State, 168 Wis. 2d
995, 1004-5, 485 N.W.2d 52 (1992). To prove ineffective

App. 28
assistance of counsel, a party must show both that trial
counsel performed deﬁciently and that the deﬁciency
resulted in prejudice. State v. Love, 2005 WI 116, ¶30,
284 Wis. 2d 111, 700 N.W.2d 62. To establish deﬁcient
performance, T.R.C. must point to speciﬁc acts or omissions that are “outside the wide range of professionally
competent assistance.” See Strickland v. Washington, 466 U.S. 668, 690 (1984). She must show that
“there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is
a probability sufﬁcient to undermine conﬁdence in the
outcome.” See id. at 669. The defendant’s burden is to
show that counsel’s errors “actually had an adverse effect on the defense.” State v. Franklin, 2001 WI 104,
¶14, 245 Wis. 2d 582, 629 N.W.2d 289 (citing to Strickland, 466 U.S. at 687, 693, and 694).
¶34 T.R.C. argues that her trial counsel failed at
the dispositional hearing in several ways. We address
each argument in turn.
A. Failure to object to admissible testimony is not deficient performance.
¶35 T.R.C. argues that trial counsel rendered ineffective assistance by failing to object that the family
case manager was not a medical expert and therefore
was not competent to testify that D. had been sick after
visits with T.R.C. She argues that the family case manager “is not able to provide any scientiﬁc knowledge to
help determine or resolve any medical allegation

App. 29
issues[.]” The transcript reﬂects that the family case
manager testiﬁed that D. suffered from diarrhea “only
after her visits” with T.R.C., that the symptoms did not
occur when the feedings were supervised at visits, and
that even after the diagnosis of lactose intolerance,
which she thought might have explained the earlier
episodes, the issue continued when there was not supervision at the visits.
¶36 Testimony of an observation of diarrhea
does not require a medical expert. Here, the testimony
was simple observations of facts that any lay person
would know. And we agree with the trial court’s conclusion that if this testimony “is in fact opinion testimony, and not simply testimony of factual observations
made by the foster parent and the family case manager, it is admissible as lay opinion testimony.” See WIS.
STAT. § 907.01 (lay witness opinion testimony admissible if it is “not based on scientiﬁc, technical, or other
specialized knowledge”). The trial court also noted that
under WIS. STAT. § 48.299(4)(b), the rules of evidence
do not apply at disposition hearings. Because it does
not require scientiﬁc, technical, or other specialized
knowledge to report on observations that D. suffered
from diarrhea after visits with T.R.C., this testimony is
not inadmissible, and trial counsel did not perform deﬁciently in failing to object to it. See State v. Allen,
2017 WI 7, ¶46, 373 Wis. 2d 98, 890 N.W.2d 245 (“It is
well-established that trial counsel could not have been
ineffective for failing to make meritless arguments.”).

App. 30
B. Failure to present irrelevant witnesses
is not deficient performance.
¶37 T.R.C. argues that trial counsel performed
deﬁciently by failing to present two witnesses on her
behalf at the disposition. She argues that trial counsel
should have called one of D.’s pediatric gastroenterologists, whose testimony “would have resolved [the
family case manager’s] unproven medical neglect allegations” in her favor and “would have been highly favorable to [T.R.C.]” T.R.C.’s argument is based on
speculation. Further, as the trial court noted, “the
State did not rely on a medical diagnosis, but rather on
the fact that loose stools occurred regularly after visits
and on virtually no other occasions.” T.R.C. has not
shown that trial counsel performed deﬁciently by failing to call this witness.
¶38 T.R.C. also argues that trial counsel should
have presented the testimony of the doctor who performed a psychological evaluation of her prior to disposition. The doctor’s report stated that T.R.C. “appears
to have come a long way in her mental health and lifestyle from when she was younger” and made the following observations:
[T.R.C.] has moved on from many of the negative inﬂuences in her life and is living a positive, faith-based life that involves gainful
employment, avoidance of drugs and alcohol,
making positive behavior choices, positive social support, and the use of emotional coping
skills for stress.

App. 31
T.R.C. argues that this doctor “favored preserving this
mother/child relationship, not severing it.” However,
that argument is not supported by the record. The report pointedly makes no recommendation regarding
the termination of parental rights in this case. It states
only: “The results of this evaluation also support continuing visitation between [T.R.C.] and her daughter
as it is determined to be appropriate by her case management team” (emphasis added). The report recommended that T.R.C. continue urine screenings, therapy,
and substance abuse treatment. Most importantly, the
report stated that “any concerns regarding [T.R.C.’s]
parenting decisions should be addressed directly between [T.R.C.] and her CPS treatment team with the
goal of developing an effective plan to remediate the
concerns.” Finally, and most importantly, the report
takes no position on the question presented at the dispositional hearing, which was whether the termination
was in D.’s best interest. Therefore, it was not deﬁcient
performance for trial counsel not to call this doctor as
a witness.
C. T.R.C. waived constitutional arguments
when she entered her plea
¶39 T.R.C. argues that trial counsel was ineffective because she failed to argue that WIS. STAT.
§ 48.415(2) is unconstitutional as applied to T.R.C. She
argues that it violates her constitutional due process
rights because where grounds are found based on continuing need of protection and services, that results in
terminations of parental rights “for reasons other than

App. 32
parental unﬁtness[.]” She further argues that her due
process rights were violated because there were less
restrictive means to protect D. than termination of parental rights and adoption because in her post-remand
motion she presented her own afﬁdavit listing three
relatives who could care for D. and an afﬁdavit of her
twenty-two-year-old brother stating his willingness “to
adopt her, if needed.”
¶40 The threshold question is whether T.R.C.
waived her right to challenge the constitutionality of
the statute as applied to her when she entered a plea
of no contest. See Jodie W., 293 Wis. 2d 530, ¶21. A plea
of no contest waives all non-jurisdictional defects in
the proceedings. State v. Princess Cinema of Milwaukee, Inc., 96 Wis. 2d 646, 651, 292 N.W.2d 807
(1980). An “as applied” challenge to the constitutionality of a statute is a non-jurisdictional defect. State v.
Cole, 2003 WI 112, ¶46, 264 Wis. 2d 520, 665 N.W.2d
328. When a court is faced with this threshold question, it begins its analysis “by determining whether
[the] no contest plea was voluntarily, knowingly, and
intelligently entered.” See Jodie W., 293 Wis. 2d 530,
¶24. Waiver is found only after a court has determined
that a no contest plea is knowing, voluntary, and intelligent. See id., ¶38 (where evidence is insufﬁcient to
support a determination that a plea is knowing, voluntary, and intelligent, as-applied constitutional challenges are not waived). As explained above, this court
determined that T.R.C.’s no contest plea was knowingly, voluntarily, and intelligently entered. Therefore,

App. 33
she has waived her right to challenge the constitutionality of the statute. See id.
D. T.R.C. waived the right to contest the
grounds when she entered her plea.
¶41 Finally, T.R.C. argues that trial counsel was
ineffective because she failed to argue that the State
had failed to “prove up the medical neglect claims” and
“did not have a medical expert testify that the medical
neglect claims, used as the core argument for TPR,
were true.” At the grounds phase, however, when T.R.C.
entered a no contest plea, the trial court asked her,
“But what you are doing is you’re recognizing that the
State can prove enough of these allegations to establish that grounds exist to terminate your parental
rights under the continuing CHIPS allegations. Do you
understand that?” And T.R.C. answered, “Yes.” Because
the colloquy establishes that the no contest plea was
validly entered, T.R.C. waived her right to challenge
the ﬁnding of unﬁtness. See Steven H., 233 Wis. 2d
344, ¶49 (holding that “where [i]t is clear from the colloquy that [the respondent] understood the nature of
the acts alleged in the petition and the potential disposition,” a no contest plea waives “the right to contest
the fact-ﬁnding hearing”).
V.

A new trial in the interest of justice is not
warranted.

¶42 T.R.C. argues that we should act pursuant to
WIS. STAT. § 752.35 and reverse the trial court’s order.

App. 34
This court may reverse the order appealed from “if it
appears from the record that the real controversy has
not been fully tried, or that it is probable that justice
has for any reason miscarried,” and in such cases, we
may remand for a new trial “as . . . necessary to accomplish the ends of justice.” Id. “The power to grant a new
trial when it appears the real controversy has not been
fully tried ‘is formidable, and should be exercised sparingly and with great caution.’ ” State v. Sugden, 2010
WI App 166, ¶37, 330 Wis. 2d 628, 795 N.W.2d 456 (citation omitted). We exercise our power to grant a discretionary reversal only in exceptional cases. Id.
¶43 T.R.C. argues that because the guardian ad
litem who recommended termination of parental
rights at the disposition hearing was later subject to a
criminal investigation for child pornography in a separate matter, there was a conﬂict of interest that
“tainted” the order in this case, and it must be vacated.
The post-remand court found that T.R.C. had established no nexus whatsoever between the hearings in
this case and the investigation in the other matter. It
therefore refused to hear evidence on the grounds that
it was not relevant to this proceeding. We agree.
T.R.C.’s argument is based on merely conclusory and
speculative allegations.
¶44 Finally, T.R.C. argues that the interest of
justice requires this court to reunite D. with T.R.C.;
however, she presents no developed argument in support of her position other than to assert that “there are
no compelling reasons to terminate [the] relationship.”
She does not advance an actual argument supporting

App. 35
her request. Under these circumstances and on this
record, we decline to exercise our WIS. STAT. § 752.35
discretionary reversal power.
By the Court.—Order afﬁrmed.
This opinion will not be published. See WIS. STAT.
RULE 809.23(1)(b)4.

App. 36
CIRCUIT COURT
STATE OF WISCONSIN
MILWAUKEE COUNTY
CHILDREN’S DIVISION
In the Interest of:
DXXX-UXXXXX CXXX

Case No. 16-TP-04

A Person under the Age of 18.

TRANSCRIPT OF
MOTION HEARING

November 20, 2018
Proceedings held before
the Honorable David Feiss
Circuit Court Judge Presiding
APPEARANCES:
ATTORNEY REBECCA KIEFER, Assistant District
Attorney, appeared on behalf of the State of Wisconsin.
ATTORNEY ANDREW SHAW, Attorney at Law, appeared on behalf of the mother, TXXXX CXXX [T.R.C.],
who appeared in person.
ATTORNEY CHRISTIE CHRISTIE, Attorney at Law,
Legal Aid Society, appeared as guardian ad litem for
the minor child.

App. 37
ALSO PRESENT:
ATTORNEY ELISABETH MUELLER, District Attorney’s Ofﬁce
ATTORNEY DEANNA WEISS, Legal Aid Society
ATTORNEY TAWNY BROOKS, Witness
[B.C.] BXXXX CXXX, Maternal Grandmother
Hannah Jagler, CRR, RPR
Ofﬁcial Court Reporter, Branch 46
[119] ATTORNEY SHAW: Thank you.
ATTORNEY KIEFER: – beyond the scope of
the hearing, and I’d move to strike that last statement.
THE COURT: I’m not going to strike that.
But do you have anything else?
ATTORNEY SHAW: No, Judge.
THE COURT:

Thank you. All right.

The issues before the Court today are whether Ms.
CXXX [C.] received ineffective assistance of counsel,
and if she did, whether that ineffective assistance was
prejudicial to her. The other issue is whether or not her
plea was entered freely, voluntarily, and intelligently.
To a large extent, those issues are tied together.
The Court has reviewed the ﬁlings on behalf of Ms.
CXXX [C.] as well as the afﬁdavit, the brief that was
ﬁled in support of Ms. CXXX’s request that the Court
vacate her no contest plea, or alternatively, even if the
Court didn’t ﬁnd that she had received ineffective

App. 38
assistance of counsel and even if the Court did ﬁnd
that her plea was entered freely, voluntarily, and intelligently, Ms. CXXX’s also asking that the judgment be
reversed in the interest of justice.
[120] In looking at this, the Court has – again, I’ve
heard the arguments; I’ve heard the testimony today
of Ms. CXXX I have heard the testimony of Attorney
Brooks. I’ve also reviewed the transcript from the December 19th hearing. I think there are a couple things
that are important to point out.
At that hearing, when the Court was informed
that Ms. CXXX wanted to enter her no contest plea, she
was asked about her educational background. She indicated that she had completed high school and she
had some college. And she was asked if she had her
high school diploma. She indicated that she did. She
indicated that she had almost two years of college, and
she had no difﬁculty reading and writing in English
and that she had never been in special education classes.
Among the issues that have been raised by Ms.
CXXX, she testiﬁed today that she was not aware that
the Court would make a ﬁnding of unﬁtness if she entered her no contest plea. I have not reviewed in any
thorough sense the transcript of the initial appearance. It is this Court’s practice to explain that at the
initial appearance. I can be a hundred percent certain,
[121] but I have – I do believe that Judge GramlingPerez or Judge Perez would have explained that, but I
have not reviewed that portion of the proceedings.

App. 39
But I have reviewed the transcript of the plea, the
no contest plea. And that transcript does indicate that
on page 15 and page 16, Ms. CXXX was asked by the
Court, do you understand that if I accept your no contest plea and ﬁnd that grounds do exist to terminate
your parental rights, that I’ll be required by law to
make a ﬁnding that you’re unﬁt as a parent for
DXXXX? Do you understand that? And then she answered that question yes.
So the transcript made clear that – and that was
not part of a long question; that was not drawn out.
That was, from this Court’s perspective, not asked in a
confusing fashion. And Ms. CXXX indicated that she
did understand that. Attorney Brooks testiﬁed today
that it is her practice to explain this to parents, and it
was Attorney Brooks’ testimony that she – the reason
she does that is that she does not want the parents to
hear that for the ﬁrst time from the Court.
Ms. CXXX, when she testiﬁed, denied [122] that
Ms. Brooks had told her that. I ﬁnd Ms. Brooks to be
more credible on that issue. From the Court’s perspective, that is a very jarring thing. No parent would want
to hear a judicial ofﬁcial or anyone tell them that
they’re unﬁt as a parent. It’s a jarring thing. I know as
a Court, it’s not something that I like to do when I have
to make that ﬁnding.
So in that context, I believe it is much more believable that Attorney Brooks, who has practiced in
Children’s Court for about ﬁve years, has been doing
termination cases for three or four years, that I ﬁnd

App. 40
her much more credible on that issue than I ﬁnd Ms.
CXXX, because I believe that Attorney Brooks would
have advised a client, just because that is such a jarring fact.
I would also indicate that I ﬁnd that Ms. CXXX
was aware of the fact that consequences of entering her
no contest plea in a ﬁnding on grounds was that there
would be a ﬁnding of unﬁtness.
At the bottom of page 16 in the transcript, the
Court again repeats that and tells or asks Ms. CXXX
whether she understands that, if we establish grounds
to terminate your parental [123] rights and make a
ﬁnding that you’re unﬁt, that we’ll go to a dispositional
hearing. So that’s a second time during the transcript,
during the hearing on December 19th, where the Court
makes clear that a consequence of the ﬁnding will be
that she’s found unﬁt as a parent. So I do believe that
Ms. CXXX entered her no contest plea knowing that a
consequence would be that she would be found unﬁt as
a parent.
The second issue that has been raised is whether
or not Ms. CXXX was aware of the difference in burden
of proof that would take place at the disposition hearing. Attorney Brooks testiﬁed that her focus was talking about the different factors that would be in play at
the disposition hearing. A great deal of the testimony
here today centered around the Court’s colloquy, where
the Court stated that the issues are a bit different at
disposition.

App. 41
However, the Court then goes on to state that, the
only focus at that point will be on what is in DXXXX’s
best interest. The focus there will not – I will no longer
need to decide whether grounds exist to terminate
your parental rights or whether the state has proven
grounds by clear, [124] convincing, and satisfactory evidence. And the Court asks Ms. CXXX if she understands that, and she indicates that – she answers yes.
So I think when that explanation is read as a
whole, along with the testimony of Attorney Brooks
where Attorney Brooks testiﬁed that they had on multiple occasions gone over the factors, I think that the
record establishes that when Ms. CXXX entered her no
contest plea, she understood that the sole focus would
be the best interest of her daughter at the disposition
hearing.
Based upon that ﬁnding, I am going to ﬁnd that
the Court did comply with 48.422(7) when it accepted
Ms. CXXX’s no contest plea. I’m going to ﬁnd that her
plea was made freely, voluntarily, and intelligently.
Ms. Brooks, or Attorney Brooks, testiﬁed today
about the emphasis on giving Ms. CXXX more time to
build a track record. What Attorney Brooks testiﬁed to
was that previously, Ms. CXXX had been successful in
moving visitation to unsupervised and that the hope
was that that would happen again, which would put
Ms. CXXX in a much stronger position at the disposition hearing. So I [125] believe that Ms. CXXX did not
receive ineffective assistance of counsel in this matter,

App. 42
and that her plea was made freely, voluntarily, and intelligently.
Further, I understand that – and we often talk
about this at disposition hearings. For better or for
worse, the issue at a disposition hearing, or one of the
factors at a disposition hearing, is not whether or not
Ms. CXXX loves DXXXX, because that’s a thousand
percent clear, that Ms. CXXX loves DXXXX. But that’s
not one of the factors.
My predecessor Court Judge Perez conducted extensive hearings, heard extensive testimony in this
matter, and I can’t ﬁnd any basis in the interest of justice to vacate the decision that she made, so the motion
to vacate the no contest plea is denied. The motion to
grant a new trial in the interest of justice is also denied.
Thank you very much.
ATTORNEY KIEFER:

Thank you, Judge.

ATTORNEY CHRISTIE:
(Proceedings concluded.)

Thank you, Judge.

App. 43
CIRCUIT COURT
STATE OF WISCONSIN
MILWAUKEE COUNTY
In The Interest
of TXXX UXXX CXXX
(xx-xx-xxx)
Decision On Remand Motion
Case No. 16TP4
The court hereby denies the Motion ﬁled by TXXXX
CXXX [T.C.] on June 7, 2018 seeking reversal of the
termination of TXXXX CXXX’s parental rights to
DXXXX UXXX CXXX (DOB xx x x x) because none of
the issues raised have legal merit or require further
fact ﬁnding hearings.
I.

Procedural History

On January 6, 2017 a petition was ﬁled alleging that
grounds existed to terminate the parental rights of
TXXXX CXXX’s based on Continuing CHIPS (48.415(2))
and Failure To Assume Parental Responsibility
(48.415(6)). An Initial Appearance was held on February 1, 2016. Ms. CXXX made her appearance and was
referred to the State Public Defender’s Ofﬁce to obtain
representation. Counsel was appointed and the Initial
Appearance was completed on April 26, 2016. At the
conclusion of the Initial Appearance a jury trial date
was set for September 19, 2016 and a ﬁnal pretrial was
set for September 12, 2016. Hearings were held on July

App. 44
20, 2016 and August 9, 2016. At the August hearing the
September trial date was vacated and a new trial date
was set for October 31, 2016. On October 25, 2016 the
case was in court for a ﬁnal pretrial and the trial date
was again moved to January 9, 2017 and another pretrial hearing was scheduled for December 19, 2016.
At the December 19th hearing Respondent CXXX
appeared with counsel and informed the court that
she wished to enter a No contest plea and give up
her rights to trial on the grounds phase of the termination proceedings. Ms. CXXX plead no contest to the
Continuing CHIPS ground as deﬁned in Wisconsin
Statue Section 48.415(2). The court accepted her plea
and found that it was knowing and voluntary. The
Court took testimony from the Ongoing Case Manager
(OCM) Christine Prescott NKA Christine Hintz. Based
on Ms. CXXX’s no contest plea, the testimony of the
Ongoing Case Manager and the exhibits offered at the
hearing, the Court found that grounds existed to terminate Ms. CXXX’s parental rights and, as required by
statute, that Ms. CXXX was unﬁt as a parent.
A Dispositional Hearing was scheduled for June 19,
2017. On May 19, 2017 the June hearing was converted
to a hearing on a potential change of placement motion. On June 19th the Court heard and granted a
Change of Placement motion. The court also ordered
the Division of Milwaukee Child Protective Services to
assist the Maternal Grandmother, BXXXX CXXX with
obtaining automobile insurance. DMCPS was ordered
to make the ﬁrst monthly payment on the insurance
and TXXXX CXXX was ordered to assist her mother in

App. 45
obtaining insurance. The Disposition Hearing was
then rescheduled for October 17, 2017.
On October 17, 2017 the case proceeded to a contested
Disposition Hearing. Testimony was taken form the
Foster parent, the Ongoing Case Manager, the Maternal Grandmother and TXXXX CXXX. The Ongoing
Case manger was recalled as a rebuttal witness. The
Court then made a determination that it was in the
best interests of DXXXX CXXX that the parental
rights of TXXXX CXXX be terminated. The parental
rights of the child’s father had previously been terminated in a voluntary proceeding.
On November 14, 2017 trial counsel ﬁled a notice of
intent to pursue post dispositional relief on behalf of
TXXXX CXXX. Attorney Karen Lueschow was subsequently appointed by the State Public Defender as
appellate counsel for Ms. CXXX. Attorney Lueschow
later withdrew as counsel after Ms. CXXX apparently
retained Attorney Andrew Shaw.
On May 11, 2018 Appellate Counsel Andrew Shaw ﬁled
a motion with the Court Appeals seeking to have the
case remanded to the trial court. On May 15, 2108 the
Court of Appeals determined that he motion and supplement ﬁled were insufﬁcient to support an order for
remand and took no action. On May 16, 2018 counsel
for Ms. CXXX, ﬁled a document titled Renewed Motion
to Remand, along with an afﬁdavit from Attorney
Shaw. On May 18, 2018 the Court of Appeals issued an
Order in 2018AP820 ordering the appeal remanded to
the circuit court. The Order gave Ms. CXXX twenty-one

App. 46
days to pursue a post judgment motion. The circuit
court was ordered to hold necessary proceedings and
enter an order containing the circuit court’s ﬁndings
with 60 days after the May 18th Order.
On June 7, 2018 Appellate Counsel ﬁled a Notice of
Motion and Post Remand Motion, accompanied by
afﬁdavits from Ms. CXXX. K.C. DXXXX’s biological
brother and from Appellate Counsel. The motion
claimed that trial counsel was ineffective for failing to
object to testimony by OCM Hintz regarding medical
knowledge on the grounds that she was not a medical
expert. Appellate counsel also argued that trial counsel
was ineffective for not arguing “that the State failed to
prove their TPR case because the State did not have
a medical expert to testify or provide medical records
. . . ” The motion also claimed that trial counsel was ineffective for failing to call Ms. CXXX ’s therapist, Dr.
Amy Gurka and for failing to call the child’s pediatric
gastrointestinal specialist. Appellate counsel also argues that trial counsel was ineffective for failing to argue that the trial court did not use strict scrutiny
analysis to protect Ms. CXXX’s “14th Amendment Fundamental Right of Familial Integrity”. Finally, appellate counsel argued if the court rejected these claims,
the court should grant a new trial in the interests of
justice.
II.

Legal Analysis

The post remand motion ﬁled by the respondent appellant TXXXX CXXX is without merit. It completely

App. 47
ignores the two phases of termination of parental
rights cases under Wisconsin law, the procedures for
Disposition hearings set forth in of Wisconsin Statutes
Section 48.299 regarding the rules of evidence at Disposition hearings and because even if the testimony offered by both the case manger and the foster parent at
the Disposition hearing was opinion testimony; none of
the testimony required expert medical knowledge.
A parent in a Termination of Parental Rights case who
seeks relief from alleged errors of ineffective trial counsel must show both that counsel was ineffective, and
that the parent was prejudiced by this ineffectiveness.
At the Disposition hearing held on October 17, 2017
the foster parent F.L. testiﬁed about DXXX’s signiﬁcant medical issues. DXXXX has a G-tube and breathing issues. DXXXX requires medication in the morning
and gets 4 and a half feedings per day. F.L. also stated
that DXXXX, who was about to turn 6, was still in diapers. Due to her feeding issues she needed to have her
diapers changed every 3 hours. (Oct 17 AM Transcript
Pg 11) The foster parent also testiﬁed that it wasn’t
usually necessary to check the diapers for a bowel
movement because they could usually smell the movement. (Oct 17 AM Tr Pg 12) After one visit the foster
parent found a slime that came up from the child’s GTube. (Tr pg 16).
When the foster parent was asked if there was anything else she noticed after visits she indicated there
was an issue with really loose diapers. The foster parent stated that during that summer DXXXX would

App. 48
defecate within half an hour of returning from a visit
and the feces would be like a liquid that would leak
down her legs. At the October hearing the foster parent
testiﬁed that these issues continued throughout the
summer, but had lessened over the last month. She testiﬁed that this issue had only occurred one time that
was not connected to a visit.
At the Disposition hearing OCM Hintz testiﬁed that
when DXXXX had visits with Ms. CXXX the visits were
unsupervised, but that a service that she called a
“safety control service” would come at prescribed times
to make sure that the child was getting her feeds and
having her diapers changed. (Tr pg 53) OCM Hintz testiﬁed that the use of the safety control service had mitigated the issue surrounding loose stools. She testiﬁed
that they were frequent before the service was implemented. (Tr pg 56). She also testiﬁed that on two occasions the service had been unable to connect with Ms.
CXXX. and on at least one of those occasions DXXXX
had loose stools after the visit.
OCM Hintz testiﬁed that she discussed this issue with
Ms. CXXX and that Ms. CXXX had no idea why
DXXXX was getting sick after visits. (Tr. Pg 59). Assuming for the moment that this testimony is in fact
opinion testimony, and not simply testimony of factual
observations made by the foster parent and the case
manager, it is admissible as lay opinion testimony.
Wisconsin Statute Section 907.01 and 907.02 set out
the standards for the admission both expert and non
expert opinions

App. 49
907.01 Opinion testimony by lay witnesses. If
the witness is not testifying as an expert, the witness’s
testimony in the form of opinions or inferences is limited to those opinions or inferences which are all of the
following:
(1)

Rationally based on the perception of the witness.

(2) Helpful to a clear understanding of the witness’s
testimony or the determination of a fact in issue.
(3) Not based on scientiﬁc, technical, or other specialized knowledge within the scope of a witness under
s907.02
907.02 Testimony by experts.
(1) If scientiﬁc, technical, or other specialized knowledge will assist the trier of fact to understand the
evidence or to determine a fact in issue, a witness qualiﬁed as an expert by knowledge, skill, experience,
training, or education, may testify thereto in the form
of an opinion or otherwise, if the testimony is based
upon sufﬁcient facts or data, the testimony is the product of reliable principles and methods, and the witness
has applied the principles and methods reliably to the
facts of the case.
In State v Small, 2013 WI App 117 the court discussed
the ability of a police ofﬁcer to testify to the audio contents of a recording. The court observed that expert
opinion is not needed if the matter is within the ken of
the general population. Virtually all of the testimony
regarding DXXXX’s medical concerns involved allegations that she had loose stools after visits. None of the

App. 50
testimony offered complex medical diagnoses as to the
speciﬁc cause of the loose stools. This is not a matter
that requires expert testimony. The ability to observe
the existence of loose bowel movements and offer a correlation to the timing of visits are observations which
are rationally based on the perceptions of the witnesses and within the ken of the general population.
Trial counsel was not ineffective for failing to object to
this testimony because that objection would have been
baseless.
While this court is not convinced that the testimony
was in fact opinion testimony, even if this was opinion
testimony, it was admissible lay testimony. Since this
testimony was something that anyone in the general
population would be capable of observing and understanding, no medical expert was needed to introduce
the testimony.
Although this court has reviewed the testimony under
the rules regarding lay opinion testimony in 907.01, it
is also noteworthy that the Post remand motion ignores the procedural rules for Termination of Parental
Rights (TPR) disposition hearings. Wisconsin Statue
Section 49.299 provides that with the exception of the
admissibility of HIV testing results, the rules of evidence do not apply at disposition hearings.
The Post remand motion also argues that trial counsel
was ineffective for failing to call DXXXX’s Gastrointestinal specialist. However, she offers no indication of
what the GI specialist would have testiﬁed to. As noted
above, the State did not rely on a medical diagnosis,

App. 51
but rather on the fact that loose stools occurred regularly after visits and on virtually no other occasions.
The Post remand motion also argues that trial counsel
was ineffective for failing to call Dr. Amy Gurka to testify that Ms. CXXX had no mental health impediments
to parenting DXXXX and that Dr. Gurka favored preserving the mother child relationship. According to the
portions of Dr. Gurka’s report which were ﬁled by appellate counsel, Dr. Gurka met with Ms. CXXX on two
dates in September 2017 and issued a psychological
evaluation dated September 15, 2017. The Evaluation
stated that the purpose of the referral was to provide
current diagnostic impressions and subsequent treatment recommendations.
Wisconsin Statute Section 48.426(3) sets out the factors that a court must consider at a Disposition hearing and provides:
In considering the best interests of the child under this
section the court shall consider but not be limited to
the following:
(a) The likelihood of the child’s adoption after termination.
(b) The age and health of the child, both at the time
of the disposition and, if applicable, at the time the
child was removed from the home.
(c) Whether the child has substantial relationships
with the parent or other family members, and whether
it would be harmful to the child to sever these relationships.

App. 52
(d)

The wishes of the child.

(e) The duration of the separation of the parent from
the child.
(f) Whether the child will be able to enter into a more
stable and permanent family relationship as a result
of the termination, taking into account the conditions
of the child’s current placement, the likelihood of future placements and the results of prior placements.
Dr. Gurka’s testimony would be relevant if the court
were required to make disposition decisions in TPR
cases based on what was in the best interests of parents, not those of the child. Dr. Gurka never met with
DXXXX and never observed any interactions between
DXXXX and Ms. CXXX. The Post remand motion fails
to point the court to any information from Dr. Gurka
that is relevant to the issues to be decided at the Disposition hearing. Therefore trial counsel was not ineffective for failing to call Dr. Gurka as a witness.
The ﬁnal error claimed in the Post remand motion is
that trial counsel failed to argue that the trial court
did not use a strict scrutiny analysis to protect Ms.
CXXX ’s rights under the 14th amendment. In making
this argument appellate counsel completely ignores
the ﬁndings made at the Grounds phase of the proceedings. When the court accepted Ms. CXXX’s no contest
plea the court took testimony and found that the State
had proven that grounds existed to terminate Ms. CXXX’s
parental rights by clear convincing and satisfactory evidence. Based on that ﬁnding, the court, as required by
law, made a ﬁnding that she was unﬁt as a parent. The

App. 53
Post remand motion references language from the
United States Supreme Court in Santosky v. Kramer,
455 U.S. 745, 102 S. Ct. 1388 (1982) and the Wisconsin
Supreme Court’s holding in Barstad v. Frazier, 118
Wis. 2d 549, 348 Wis. 2d 479 (1984). Neither of these
cases offer any support for Ms. CXXX’s position. In
Santosky the United States Supreme Court held that
a ﬁnding of grounds to terminate parental rights required a higher burden of proof than simply the
greater weight of the credible evidence. The court required states to prove grounds for termination by at
least clear, convincing and satisfactory evidence. The
Court did not require that states prove termination
grounds beyond a reasonable doubt, noting that a
number of factors in termination cases were not amenable to that level of proof.
Proceedings under Wisconsin Statue 48.415 comply
with the Court’s holding in Santosky and require that
the petitioner provide proof at the grounds phase that
is clear convincing and satisfactory.
The Post remand motion quotes language from the
Barstad decision that discusses the need for a higher
standard than the best interests of the child in custody
disputes between a parent and a nonparent third
party. However, the motion ignores the fact that Ms.
CXXX was found unﬁt as a parent at the conclusion of
the grounds phase. The Barstad court expressly noted
that once a parent is found to be unﬁt, the court then
must look at the best interests of the child in making
a custody determination.

App. 54
In the instant case the mattes that were relevant to
the court’s determination at he Disposition hearing
were fully and competently litigated. The court’s decision, while painful for Ms. CXXX is supported by the
facts in the record. Therefore no new hearing is warranted.
For the reasons set forth above the court ﬁnds that
none of the claims raised in the Post remand motion
have merit or require further fact ﬁnding. Therefore
the Post remand motion is denied in its entirety.
BY THE COURT:
/s/ David Feiss
Hon. David Feiss
Milwaukee County
Circuit Court
Br 46
June 27, 2018

[SEAL]

App. 55
STATE OF WISCONSIN, CIRCUIT
COURT, MILWAUKEE COUNTY
IN THE
INTEREST OF
DXXX-UXXXXX CXXX
Name
X/ X/XXX
Date of Birth

For Official Use
Circuit Court
of Milwaukee
County
[Illegible]

Order
Concerning
Termination
of Parental 32 OCT 17 2017
Rights
CHILDREN’S
(Involuntary)
DIVISION
[ILLEGIBLE]
Case No.
2016TP00004

This termination of parental rights hearing was held
on [Date] 10/17/17, which is the effective date of this
order.
THE COURT FINDS:
1.

Notice was given to all those entitled to notice.

2.

The provisions of the Indian Child Welfare Act
do not apply. An inquiry has been made on the
record to each participant in this proceeding
as to whether the participant knows or has
reason to know that the child is an Indian
child. [For an Indian child, use the Indian
Child Welfare Act version (IW-1639) of this order.]

3.

The parent(s) are
☒ A. Parent #1’s name: TXXXX R CXXX
Date of birth: XXXXXXX
☒ B. Parent #2’s name: SXXXX DXXX
Date of birth: XXXXXXX

App. 56
⬜ C. Other possible parent(s):
Name:
Date of birth:
Name:
Date of birth:
Name:
Date of birth:
☒

4.

There was no declaration of paternal interest.

⬜

5.

Name(s)
failed to appear at the hearing, and is/are in
default

6.

This matter was tried to ⬜ a jury. ☒ the court.
The following grounds for termination of the
parental rights of TXXXX CXXX were found to
exist.
Parent #1 Parent #2
⬜
⬜ abandonment
⬜
⬜ relinquishment
☒
⬜ continuing need of
protection or services
⬜
⬜ continuing parental
disability
⬜
⬜ continuing denial of
periods of physical
placement or visitation
⬜
⬜ child abuse
⬜
⬜ failure to assume
parental responsibility
⬜
⬜ incestuous parenthood
⬜
⬜ homicide or solicitation to
commit homicide of parent
⬜
⬜ parenthood as a result
of sexual assault
⬜
⬜ commission of a felony
against a child

App. 57
⬜

☒

⬜ prior involuntary
termination of parental
rights to another child

7.

☒ Parent #1 ⬜ Parent #2 is unﬁt.

8.

It is in the best interest of the child that the
parental rights of the ☒ Parent #1 ⬜ Parent #2 (s)
be terminated after considering the following
factors:
•

The likelihood of the child’s adoption
after termination.

•

The age and health of the child, both
at the time of the disposition and, if
applicable, at the time the child was
removed from the home.

•

Whether the child has substantial relationships with the parent or other
family members, and whether it would
be harmful to the child to sever these
relationships.

•

The wishes of the child.

•

The duration of the separation of the
parent from the child.

•

Whether the child will be able to enter into a more stable and permanent
family relationship as a result of the
termination, taking into account the
conditions of the child’s current placement, the likelihood of future placements
and the results of prior placements.

App. 58
9.

Reasonable efforts to achieve the permanency
goal of the permanency plan, including through
an out-of-state placement if appropriate, were
[Complete one of the following only if there is
a permanency plan]
⬜

made by the department or agency responsible for providing services.

⬜

not made by the department or agency
responsible for providing services.

10. Any parent who has appeared was informed
of the provisions of §§48.432, 48.433 and
48.434, Wis. Stats.
☒

11. Other: SXXXX DXXX voluntarily terminated
his parental rights pursuant to Wis. Stat.
48.41 and is not unﬁt. [His parental rights are
dealt with in a VOL order dated today’s date.]

⬜

12. The evidence does not warrant the termination
of the parental rights of [Name]

THE COURT ORDERS:
☒

1.A. The parental rights of [Name of Parent(s)]
SXXXX DXXX is/are terminated.
Guardianship, placement and care responsibility, and custody of the child
⬜ remain with the parent whose rights
have not been terminated.
☒ are transferred pending adoption to
DMCPS

App. 59
⬜ Other:
If guardianship or custody is transferred to
an agency, that agency shall be responsible
for securing the adoption of the child or establishing the child in a permanent family
setting. The child’s permanency pla[illegible]
☒ was ﬁled. ⬜ is attached. ⬜ will be ﬁled
within 60 days.
The provisions of §§48.432, 48.433 and
48.434 Wis. Stats., are attached.
⬜

1.B. The petition to terminate parental rights of
[Name]
is dismissed.

☒

2.

Other: The CHPS order and appointment of
GAL continue until an adoption is ﬁnalized.
THIS IS A FINAL ORDER
FOR PURPOSES OF APPEAL.
BY THE COURT:
/s/ Laura Gramling Perez
Circuit Court Judge

[SEAL]

HON. LAURA GRAMLING PEREZ
Name Printed or Typed
10/17/17
Date

App. 60
OFFICE OF THE CLERK
Supreme Court of Wisconsin
[SEAL]

110 EAST MAIN STREET, SUITE 215
P.O. BOX 1688
MADISON, WI 53701-1688
TELEPHONE (608) 266-1880
FACSIMILE (608) 267-0640
Web Site: www.wicourts.gov
July 10, 2019

To:
Hon. Laura Gramling Perez
Circuit Court Judge
10201 W. Watertown
Plank Rd.
Milwaukee, WI 53226
Josh Steib
Juvenile Clerk
Children’s Court Center
10201 W. Watertown
Plank Rd.
Milwaukee, WI 53226
Rebecca Anne Kiefer
Assistant District Attorney
Children’s Court Center
10201 W. Watertown
Plank Rd.
Milwaukee, WI 53226

Andrew J. Shaw
Shaw Law Ofﬁces
P.O. Box 18353
Milwaukee, WI 53218
Christie A. Christie
Legal Aid Society
of Milwaukee
10201 Watertown
Plank Rd.
Milwaukee, WI 53226-3532
Dr. Robin Joseph
Div. of Milwaukee Child
Protective Services
635 N. 26th St.
Milwaukee, WI 53233-1803

You are hereby notiﬁed that the Court has entered the
following order:

App. 61

No. 2018AP820

State v. T.R.C.

L.C.#2016TP4

A petition for review pursuant to Wis. Stat. § 808.10
having been ﬁled on behalf of respondent-appellantpetitioner, T.R.C., and considered by this court;
IT IS ORDERED that the petition for review is denied, without costs.
SHIRLEY S. ABRAHAMSON, J., did not participate.
Sheila T. Reiff
Clerk of Supreme Court

